                                            SENSITIVE BUT UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              OFFICE OF INSPECTIONS

                              Inspection of Embassy Copenhagen,
                              Denmark


                              Report Number ISP-I-11-19A, March 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                            SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




  PURPOSE, SCOPE, AND METHODOLOGY
         OF THE INSPECTION
This inspection was conducted in accordance with the Quality
Standards for Inspections, as issued by the President’s Council on
Integrity and Efficiency, and the Inspector’s Handbook, as issued
by the Office of Inspector General for the U.S. Department of State
(Department) and the Broadcasting Board of Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the
Chairman of the BBG, and Congress with systematic and indepen-
dent evaluations of the operations of the Department and the BBG.
Inspections cover three broad areas, consistent with Section 209 of
the Foreign Service Act of 1980:
    •     Policy Implementation: whether policy goals and objectives
          are being effectively achieved; whether U.S. interests are being
          accurately and effectively represented; and whether all elements
          of an office or mission are being adequately coordinated.
    •     Resource Management: whether resources are being used and
          managed with maximum efficiency, effectiveness, and economy
          and whether financial transactions and accounts are properly
          conducted, maintained, and reported.
    •     Management Controls: whether the administration of activi-
          ties and operations meets the requirements of applicable laws
          and regulations; whether internal management controls have
          been instituted to ensure quality of performance and reduce
          the likelihood of mismanagement; whether instance of fraud,
          waste, or abuse exist; and whether adequate steps for detection,
          correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent
records; as appropriate, circulated, reviewed, and compiled the
results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recom-
mendations with offices, individuals, organizations, and activities
affected by this review.




   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl-
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



                                    TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
POLICY AND PROGRAM IMPLEMENTATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  The Political/Economic Section . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
  International Conference on the Role of Women in Global Security . . . . . . . . . . . . . . . . .11
  Greenland . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
  Public Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Best Practice: Providing Information about the United States to Schoolchildren . . . . . . . . . . .15
  Consular Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           27
  Management Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               27
  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              29
  International Cooperative Administrative Support Services . . . . . . . . . . . . . . . . . . . . . . .                               29
  Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           29
  General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        30
  Facility Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           33
  Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                35
  Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          35
  Best Practice: The Information Systems Security Officer Toolkit . . . . . . . . . . . . . . . . . . .                                 36
QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             37
  Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                37
  Medical Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      37
  Schools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   37
  Employee Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            38
  Equal Employment Opportunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     38
MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           39
 Separation of Duties – Property Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           39
 Property Disposal Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 39
 Safety, Health, and Environmental Management Program – Motor Vehicles . . . . . . . . . . .                                            40
 Acceptance of Gifts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          41
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51


                        OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011                                 iv


                       SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




v   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



KEY JUDGMENTS

•	 The Ambassador has led an effective dialog with the Danes and been the driving
   force behind major initiatives on women’s issues and counterterrorism.

•	 The Ambassador also has fostered a high degree of collaboration among the vari-
   ous agencies at the embassy.

•	 The reporting, analysis, and outreach functions are operating below potential,
   due to the concentration of decisionmaking in the hands of the Ambassador.

•	 The embassy staff perceives that the Ambassador is unwilling to delegate author-
   ity, and that this weakens the chain of command and disempowers section
   leaders, making it difficult for them to organize their work and to hold officers
   within their sections accountable.

•	 The Ambassador has, in effect, become a first-line supervisor, and can be harsh in
   dealing with any lapses she perceives. (b)(2)(b)(5)


•	 The embassy has been consumed with a series of resource-intensive, one-off
   events: two presidential visits during the last quarter of 2009 and an ambitious
   international conference it is cosponsoring in fall 2010.
•	 A small management section has adopted some of the Department’s newest
   innovations, delivering high quality services in most areas. Some general services
   operations, however, suffer from inexperienced leadership and a lack of staff
   training.

•	 Increasing tourism, climate change, commercial opportunities, and the prospect
   of future independence will call for increased embassy attention to Greenland,
   currently an autonomous country within the Kingdom of Denmark.
•	 The public affairs section runs an active and efficient public diplomacy program
   that is well adapted to the Danish environment, but it should make several
   administrative improvements, particularly involving grants. The Ambassador
   should engage in more policy-oriented press activities as part of a long-term
   media strategy.

The inspection took place in Washington, DC, between September 1 and 29, 2010,
and in Copenhagen, Denmark, between September 30 and October 14, 2010.
(b) (6)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   1


              SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED


    (b) (6)




2             OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


              SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



CONTEXT

Denmark lies in northern Europe
between the Baltic and North Seas
and occupies the Jutland peninsula
and an archipelago to its east,
of which the largest islands are
Zealand and Funen. This land area
of 16,640 square miles constitutes
about one-fourth of the Kingdom of
Denmark, the remainder of which
consists of Greenland (836,109
square miles) and the Faroe Islands
(540 square miles). With a popula-
tion of 5.5 million people and a
gross domestic product per capita
of $58,000 per year, Denmark
ranks sixteenth overall in the World
Bank’s 2009 Human Development                       Map of Denmark.
Index.                                              Source: U.S. Government

Denmark is the only Nordic country that is a member of both the North Atlantic
Treaty Organization and the European Union, and its international engagement has
reflected interests that are convergent with those of the United States. The Danes
value the United States as a close ally, and twice welcomed President Obama during
2009. At its peak, Denmark had some 540 troops in Iraq; it has a current deployment
ceiling of 750 troops in Afghanistan (Helmand province), in addition to peacekeepers
in Kosovo and Lebanon. Denmark will chair the Arctic Council until April 2011, the
UN climate change process until December 2010, and the European Union in 2012.

The Kingdom of Denmark is a constitutional monarchy with a unicameral legislature.
Ruled since 2001 by a minority coalition government, it must call elections before
November 2011. In line with its Scandinavian neighbors, the country has followed a
relatively open immigration policy. However, immigration has emerged as an issue of
concern in Danish politics, notably in the wake of the response among Muslims to
cartoons they deem offensive that a Danish newspaper published in 2005.

With few natural resources of its own, the Danish economy is highly reliant on raw
material imports and on its human resources to add value. Overall, its principal
exports are machinery, instruments, and food products. The United States accounts
for around 5 percent of total Danish merchandise trade, and in 2009 was Denmark’s


              OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   3


              SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    largest non-European trading partner. Figures for 2010 will likely show China in
    that position. Aircraft, computers, machinery, and instruments are among the major
    U.S. exports to Denmark. The government is a major economic actor in the domestic
    economy, providing a wide array of social support, for which Danes pay a large share
    of their income in taxes. The precipitous global economic slowdown beginning in
    2007 negatively affected Denmark’s growth and led to a substantial increase in
    unemployment levels and to an eventual public sector deficit in 2009. Despite this
    deterioration in its public accounts, however, Denmark’s fiscal position remains
    among Europe’s strongest.

    The embassy has benefitted from close relations with the Danish Government, busi-
    ness, and civil society to enhance cooperation across the board, notably in antiterror-
    ism, military sales, infectious diseases, and the environment. During the inspection,
    the embassy was making preparations for an ambitious, multimedia conference in
    Copenhagen which the U.S. and Danish Governments are cosponsoring on the role
    of women in global security.




4                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



EXECUTIVE DIRECTION

The Ambassador arrived at the embassy on July 29, 2009. Since that time, she has
endeavored to bring together the entire mission team in a coordinated effort to
represent U.S. interests in Denmark. The deputy chief of mission (DCM) is new at
post and is quickly getting a complete grasp of mission operations. The Ambassador
has been able to maintain an excellent working relationship with the Government of
Denmark, and has been the driving force behind a number of noteworthy initiatives.

Denmark will remain an excellent partner of the United States in many areas of
shared interests. Two presidential visits and visits by cabinet members and congres-
sional delegations have been the hallmark of the Ambassador’s first year at post.
The embassy will follow up this year with the top priority year of co-hosting, with
Denmark, the Nordic-Baltic Conference on the Role of Women in Global Security,
to take place in Copenhagen October 29-30, 2010. The genesis for this event was the
Ambassador’s experience as a board member of the United States Institute of Peace.

The Ambassador uses her 4-days-per-week senior staff meeting, weekly country team
meetings, and targeted meetings with section heads and working groups to direct
the country team’s efforts toward meeting the goals of the Mission Strategic and
Resource Plan (MSRP). This approach has fostered a high degree of collaboration
among non-Department of State entities at post. Agency heads reported to the Office
of Inspector General (OIG) team that they had an active role in the development and
implementation of the MSRP and shared their agency’s reporting and analysis plans
with senior embassy management.

The Ambassador arrived at the embassy as soon as she could, pressed for time to pres-
ent her credentials to prepare for several high-level visits planned for fall 2009. As a
result, she did not conduct all of the consultations in Washington that ambassadors
normally conduct in advance of assuming charge. This situation left her less than
fully prepared for the work she had to undertake immediately upon her arrival.


    RECOMMENDATION 1: The Bureau of European and Eurasian Affairs
    should arrange consultations in Washington for the Ambassador of Embassy
    Copenhagen at the earliest opportunity. (Action: EUR)


During that same transfer season, the embassy experienced a heavy turnover of
personnel. Besides the Ambassador, the turnover included four of five political/
economic officers, all three consular officers, the regional affairs chief, and the


               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   5


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    Defense attaché. The deputy of the political/economic section left a vacancy in his
    position when he took a 1-year assignment in Afghanistan. Continuity at the embassy
    further suffered when the Ambassador, after conferring with and receiving guidance
    from the Department, asked the former DCM to leave the embassy in January 2010.
    This departure resulted in a staffing gap of the DCM position for 9 months, which
    the political/economic section chief filled on an acting basis. There followed extended
    gaps in both the management officer and regional security officer (RSO) positions as
    well.

    The Ambassador has felt these gaps, as well as the relative lack of preparation for her
    rather precipitous arrival, as a lack of support. She responded by shouldering a major
    portion of priority setting, sometimes directing the day-to-day operation of many
    embassy sections personally, which staff perceive as in effect displacing the authority
    of section heads and bringing the most routine tasks under her close supervision.
    For fear of having items “fall through the cracks” or “be sent out incorrectly,” the
    Ambassador frequently checks officer performance at all levels of preparation and
    has sometimes been reluctant to delegate authority, even to the DCM. Where she
    perceives lapses, her response has been sharp and, to those affected, frequently unpre-
    dictable. (b)(2)(b)(5)



    The OIG team recommended a restart in the front office, assigning the DCM the
    role of the embassy’s chief operating officer, affirming a clear chain of command, and
    pursuing transparency (b)(2)(b)(5)



       RECOMMENDATION 2: Embassy Copenhagen should implement operat-
       ing procedures that assign the responsibility for administrative and day-to-day
       operations of the embassy, as well as the decisionmaking related to these func-
       tions, to the deputy chief of mission. (Action: Embassy Copenhagen)




       RECOMMENDATION 3: Embassy Copenhagen should issue an admin-
       istrative notice that delineates a clear chain of command and makes section
       heads fully responsible for the conduct of their sections, and affirms their role
       in maintaining oversight and quality control over their section’s work. (Action:
       Embassy Copenhagen)




6                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




    RECOMMENDATION 4: Embassy Copenhagen should foster greater trans-
    parency, with the front office exchanging more information regarding opera-
    tions and activities with the working levels of the embassy, to include attend-
    ing working level meetings. (Action: Embassy Copenhagen)


The embassy deployed the State Messaging and Archival Retrieval Toolkit (SMART)
in April 2010, but reporting officers have yet to realize its full potential. For example,
officers indicated to the OIG team that they had yet to send any record emails,
professing lack of confidence in the procedure to do so, as well as uncertainty regard-
ing how to identify such records.

Informal Recommendation 1: Embassy Copenhagen should develop and distribute
guidelines for when to use informal email, record email, and cables for communica-
tion and reporting.




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   7


               SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED




8   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION

Agency heads expressed satisfaction with the level of interagency cooperation and
strong front office support. Interaction among agencies is high, and information
exchange effectively bridges the intervals between meetings of working groups on law
enforcement and counterintelligence.




THE POLITICAL/ECONOMIC SECTION
Embassy Copenhagen has a combined political/economic section consisting of a
cadre of political officers; an economic officer; an environment, science, technology,
and health (ESTH) officer; and three LE specialists supporting each function. The
section engages with the Danish Government, business, and civil society across a
broad policy range, and has identified a clear set of objectives and reporting mile-
stones, both in the MSRP and in its own reporting plan.

The section has been challenged to meet this agenda. The absence of the deputy section
chief on a 1-year tour to Afghanistan has meant that the section has lacked the capacity
to complete some of its planned reporting. In addition, two presidential visits, turnover
in senior staff, and preparations for a large, U.S. cosponsored conference have diverted
a large share of the remaining resources from core reporting. The consequent press of
business has led officers to develop some of their reports with little and often no face-to-
face interaction with Danish officials, relying instead on material from the press and the
Internet. This is only nominally responsive to the embassy’s reporting responsibilities. In
view of the resources the Department expends to deploy reporting officers to the field,
their first-hand assessments of the developments on which they report are essential.

The Ambassador is deeply involved in all aspects of reporting and approves all
substantive cables, regardless of whether the DCM has reviewed and cleared them.
Her editorial intervention is frequent and substantial, and an excessively rigorous
clearance process has resulted in some delays in filing cables. Even in the case of
routine démarche cables, the section must prepare a package for the Ambassador’s
approval that includes background to the issue, talking points, and recommenda-
tions for the action officer and the démarche recipient. Once the officer has deliv-
ered the démarche, the section produces a reporting cable package. In this way a
routine function has become a time-consuming and staff-intensive activity, often


                OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   9


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     significantly delaying the démarche process. In recent months, the Ambassador has
     agreed to receive only information copies of packages for the most routine démarches,
     rather than holding them for approval. While this is a positive step, it only partially
     addresses the time delay issue, and does not reduce the burden on staff. A similar
     document preparation protocol is in place for other reporting cables.

     Reporting has suffered in recent months. Washington end users noted a fall-off in
     quantity of substantive reporting, and indeed, the OIG’s review determined that
     démarche responses constituted the bulk of cable reports. It also determined a shift
     in substantive reportage in favor of a relatively strict recitation of fact, in lieu of the
     kind of analysis and biographic insight that are the stock in trade of reporting offi-
     cers. “Embassy comment” sections and biographic background were typically absent.
     The section should take advantage of the restart discussed above to revamp its own
     procedures and practices to correct these shortcomings.


         RECOMMENDATION 5: Embassy Copenhagen should design and imple-
         ment a clearance process for the political/economic section to increase its
         productivity and the quality of its reporting. (Action: Embassy Copenhagen)




         RECOMMENDATION 6: Embassy Copenhagen should implement a plan
         for the political/economic section to report more context and undertake more
         analysis in its reporting. (Action: Embassy Copenhagen)


     To a considerable degree, the embassy relies on email for communication with
     Washington consumers, and officers direct their spot reporting to known end users
     as developments occur. Even though these emails require ambassadorial approval,
     officers find them a more convenient means of informing policymakers than cables,
     which are subject to more rigorous front office vetting. The drawbacks of this
     approach to reporting are well known: distribution is inadequately broad to reach the
     full range of end users; the report does not create a retrievable record in accordance
     with 5 FAM 414.5 and 5 FAH-4 H-113; and the report is not sufficiently authorita-
     tive to be cited in some government reports.


         RECOMMENDATION 7: Embassy Copenhagen should rebalance its use
         of email and informal messages in favor of cables that report developments,
         analyze trends, and offer scenarios and suggestions for U.S. policymakers.
         (Action: Embassy Copenhagen)



10                   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Environment, Science, Technology, and Health
The ESTH section consists of a single officer and a dedicated local employee. The
bilateral elements of this function have proliferated, as the United States has become
more engaged with the Danes on climate, Arctic issues, and the U.S.-Denmark-
Greenland Joint Committee (discussed below, in the section on Greenland). The
embassy’s work on “greening” its own facilities has also demanded ESTH section
attention.

However, in addition to his bilateral duties, the ESTH officer has regional respon-
sibilities. Copenhagen is an ESTH hub; as such, it covers the five Nordic countries
and to a lesser extent Germany, Poland, and Russia. The Bureau of Oceans and
International Environmental and Scientific Affairs is seeking to strengthen the role of
such hub officers.

The ESTH officer currently reports to the political/economic section chief, who is
his rater; the DCM is his reviewer. The ESTH officer’s portfolio includes substantial
regional content, and his Copenhagen-based officers may not be fully aware of much
of that content. It would be preferable if the ESTH officer’s evaluation fully reflected
his performance on regional, as well as bilateral, issues.


    RECOMMENDATION 8: Embassy Copenhagen, in coordination with
    the Bureau of Oceans and International Environmental and Scientific
    Affairs, should amend the work requirements of position 57152000, such
    that the reviewing officer is an appropriate officer in the Bureau of Oceans
    and International Environmental and Scientific Affairs. (Action: Embassy
    Copenhagen, in coordination with OES)




INTERNATIONAL CONFERENCE ON THE ROLE OF
WOMEN IN GLOBAL SECURITY
The FY 2012 MSRP introduces a new goal for FY 2011: convening an international
conference to mark the 10th anniversary of the UN Security Council Resolution
1325 on Women, Peace and Security, highlighting the important role that women
play in preventing and resolving conflicts and in building peace and stable societ-
ies. The Ambassador has been the inspiration and driving force behind this project,
which the United States is cosponsoring with the Danish Government. Its focus
will be on the lessons learned from women in Afghanistan, Liberia, and Uganda in



               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   11


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     the areas of conflict and peacekeeping operations, post-conflict reconciliation and
     reintegration, and economic development.

     The Ambassador discussed this conference with Washington interlocutors early
     in her tenure, eventually settling on the dates of October 29-30, 2010. However,
     planning for the conference, in earnest, suffered from staffing gaps in critical posi-
     tions (notably the DCM and management officer), and communication with the
     Department failed to mobilize sufficient resources. Some 6 months in advance of the
     target date, the embassy assigned an entry-level officer (ELO) to the project, and an
     eligible family member later joined the effort, which also benefitted from the support
     of the public affairs section (PAS). Although a number of Department entities mobi-
     lized some resources, the lack of timely coordination with the Department meant
     that the embassy lost opportunities for more financial support. The embassy invested
     a great deal of time and staff effort in preparing and carrying out fundraising, and
     was fortunate that the conference’s timing enabled it to benefit from a surge in end-
     of-year funding.

     The priority the embassy assigned to this conference displaced a number of other
     activities, and may have affected the embassy’s ability to adjust to guidance from
     Washington. As noted elsewhere in this report, it likely affected the quality of report-
     ing and public diplomacy priorities. Once the conference is concluded, the OIG team
     expects that the embassy will be able to pursue its normal MSRP goals in a more
     balanced fashion.


         RECOMMENDATION 9: Embassy Copenhagen should review the priorities
         it set out in its 2012 Mission Strategic and Resource Plan and, in coordination
         with the Bureau of European and Eurasian Affairs, identify those priorities
         that would benefit most from a normal programming of resources. (Action:
         Embassy Copenhagen, in coordination with EUR)




     GREENLAND
     Greenland is an autonomous country within the Kingdom of Denmark, recognizing
     Danish Queen Margrethe II as its sovereign, and entrusting its defense and foreign
     policies to Copenhagen. The subsidy of 3.2 billion Danish kroner (about $600
     million) that Denmark provides it each year will decline, as Greenland’s collection of
     natural resource fees increases. Greenland shows great promise as a source of oil, and
     the discovery of reserves there will ease the path toward its full independence in the
     near future, should it move in that direction.


12                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



The OIG team noted many embassy efforts devoted to managing the relationship
with Greenland. The most visible of these is that the 21st Contracting Squadron’s
Detachment 1 is supporting the U.S. air base in Thule. The ESTH section manages
a three-way dialog in the U.S.-Denmark-Greenland Joint Committee, a forum in
large part aimed at building Greenland’s governance capacity. The economic officer
has worked with the Foreign Commercial Service to support the surging interest of
the U.S. business sector in Greenland’s oil and aluminum industries. PAS supports
an American Corner in Nuuk (described below), conducts an annual speaker
program there, devotes one of its International Visitor Leadership Program slots to a
candidate from Greenland, and provides grant assistance to help fund development
of a Greenlandic-English dictionary. The consular section manages a caseload in
Greenland that is poised to explode if current business and tourist trends continue.

The OIG team believes that now is the time for the embassy to begin conceiving how
best to cover functions in this incipient nation. The embassy and Department inter-
locutors discussed with the OIG team the need for more staff time on the ground in
Greenland. Considerable expertise already exists within the embassy on Greenlandic
issues, and the embassy should mobilize that expertise to develop recommendations
to address U.S. interests in Greenland and to develop options for coverage, particu-
larly if Greenland moves toward independence.


   RECOMMENDATION 10: Embassy Copenhagen should constitute a
   working group composed of embassy elements that are active in Greenland, to
   determine whether and how to increase staff time in Greenland; identify U.S.
   strategic interests there; and, in coordination with the Bureau for European
   and Eurasian Affairs, develop recommendations for how to pursue these inter-
   ests. (Action: Embassy Copenhagen, in coordination with EUR)




PUBLIC DIPLOMACY
The PAS runs an active $1 million program with two officers and just five LE staff
members. The Danish environment is conducive to public diplomacy efforts, as the
country is a U.S. ally and anti-Americanism is not a significant problem. PAS has
adapted its approach in accordance with this sophisticated, information-rich society,
especially in the operations of the Information Resource Center (IRC).

Over the past several years, the section has focused significant effort on Muslim
outreach, minority integration, and Greenland programs. In the face of steady or
declining resources, it has supplemented its budget by submitting project proposals


               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   13


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     in response to Department offers of special funds. To aid in strategic planning, the
     section has a public diplomacy implementation plan that spells out how it will use
     various programs to carry out MSRP goals. However, over the past year, the series of
     major one-off events—presidential visits, a major summit on the UN climate change
     process, and the October 2010 Role of Women in Global Security conference—has
     occupied a huge chunk of the section’s time, energy, and resources. The conference,
     for example, diverted some public diplomacy funds that would otherwise have gone
     to a minority exchange program.

     These special events and the need to rely on special project funding for major initia-
     tives have hampered strategic planning and implementation. The section also needs
     to improve some of its administrative procedures, particularly those involving grants.


     Information Outreach
     The Ambassador has traveled extensively around Denmark and conducted numerous
     interviews with regional and local news media. She has also given press interviews in
     connection with the various conferences and special events, but has participated in
     few substantive, policy-oriented interviews or media activities. As the primary public
     face of the embassy and American policy, the Ambassador has a unique role and
     impact in public diplomacy. The embassy needs a long-range media strategy for the
     Ambassador and a regular way of providing her with issue-oriented briefing materials
     for major interviews and speeches. For her part, the Ambassador needs to develop
     more informal ties with journalists in order to conduct effective media outreach.


         RECOMMENDATION 11: Embassy Copenhagen should develop and carry
         out a long-range media strategy for the Ambassador that includes public inter-
         views and speeches, as well as informal, off-the-record gatherings with journal-
         ists. For these encounters, the Ambassador should receive briefing materials
         covering key issues. (Action: Embassy Copenhagen)


     PAS has the lead in press matters, and other sections and agencies in the embassy
     refer press inquiries to the section and keep it informed about press-related events.
     However, the embassy lacks a formal press policy that encourages broader embassy
     interaction with the press and establishes ground rules.

     Informal Recommendation 2: Embassy Copenhagen should develop a formal media
     policy and circulate it periodically to embassy staff.

     The IRC takes a non-traditional approach in keeping with its limited resources and
     the Danish milieu. Not open to the public, the unit consists of a single staff member


14                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



(the director) and a couple of bookcases of reference materials in his office. Unlike
many IRCs, it does not send out information products to select recipients, because the
director found that the recipients had a multitude of other sources of information and
were not interested in receiving embassy emails. Instead, he focuses on the Web site and
social media and answers questions from contacts, journalists, and the public. A key
initiative is the IRC’s collaboration with the Danish Ministry of Education to provide
information about the United States for Danish schoolchildren on the ministry’s Web
site. The OIG team highlighted this creative site as a best practice.


                BEST PRACTICE: Providing Information about the United
                States to Schoolchildren

                Issue: In Denmark’s crowded information environment with many competing
                sources, PAS faces a challenge in drawing audience attention to its informa-
                tion materials about the United States. Reaching schoolchildren is a special
                challenge.
                Response: In cooperation with the Danish Ministry of Education, the
                embassy’s IRC created a Virtual Presence Post-type site within the ministry’s
                main education portal for Danish students: www.EMU.dk. The site contains
                information in Danish and English about American history and culture
                drawn from America.gov and other sources and divided into different sections
                for elementary, middle, and high school students. It also contains links to
                the embassy’s social media sites. For the younger children, the site features a
                mascot, “Teddy,” a teddy bear diplomat who is friends with the main site’s emu
                mascot and shares adventures with him. One of the blogs on the site refers to
                them as “furry agents of cultural exchange.”
                Result: Children are able to find the American information pages because
                they are part of a Web portal they access frequently. Because the site is located
                within the ministry’s main education portal and follows its rules on accuracy
                and objectivity, Danish teachers feel comfortable using the materials in their
                classrooms.



The IRC manages the embassy’s three social media sites—Facebook, Twitter,
and YouTube—but is still grappling with the purpose and goals of these sites.
Maintaining social media sites is very time consuming, especially with regard
to editing videos for the YouTube site. These videos greatly increase the reach
of embassy public diplomacy programs. Some of the videos receive more than a
thousand views, but there is an inverse relationship between the seriousness of
the topic and the number of viewers. At the time of the inspection, the embassy’s
social media sites did not meet some of the requirements for dealing with social
media, as outlined in the new subsection of 5 FAM 790, which was issued in June
2010. These include, for example, sections on registering sites in the Information


               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   15


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Technology Asset Baseline (5 FAM 793.1 d.), incorporating Terms of Use (5 FAM
     793.4 b.) and privacy statements (5 FAM 795.1 a. – i.), and compliance with
     Section 508 rules regarding accessibility for the disabled (5 FAM 794 a.(7)). The
     staff was unfamiliar with the new regulations.


         RECOMMENDATION 12: Embassy Copenhagen should bring its social
         media sites into compliance with the new Department guidelines on social
         media. (Action: Embassy Copenhagen)


     PAS supports one American Corner, located in Nuuk, the capital of Greenland,
     in the second-floor library at the Nuuk Teacher’s Training Institute. The Corner
     receives only limited use, primarily by college and high school students. It has a
     small book and DVD collection, and its volunteer director arranges little or no
     programming there. Embassy Copenhagen finds it difficult to support the corner
     with programs, because it is so remote and its facilities are so small. In other circum-
     stances, this American Corner would be a likely candidate for closure, but it has
     symbolic importance as a tangible example of U.S. support, in keeping with the U.S.-
     Denmark-Greenland Joint Committee’s charge to promote cooperation in a range of
     areas, including education and culture. Given its relatively low cost, the OIG team
     believes that the embassy should make decisions about the future of the corner only
     within the context of the overall strategic approach to Greenland discussed above.


     Education and Exchanges
     A joint Danish-American Fulbright Commission, established in 1951, runs the
     Fulbright Program in Denmark. It shares offices and staff with another exchange
     organization, the Danish America Foundation, in an unusual partnership to save
     on administrative costs. The arrangement appears to work well. The contribution of
     the Danish Government ($400,000 in FY 2010) exceeds that of the United States
     ($310,500), but the overall Fulbright budget has stagnated in the face of rising costs,
     leading to concerns about the long-term health of the program.

     The commission has expanded the reach of Fulbright in Denmark to include
     programs aimed at minority and underserved communities, such as the Summer
     Institutes for European Student Leaders and a community college teacher exchange.
     The largest element of the Fulbright exchanges is the student program, in which
     seven American students travel to Denmark to conduct research projects, while about
     twice that number of Danes go to the United States. One problem with the American
     student program is that the Institute for International Education, which prescreens
     the American applications, does not send forward enough candidate applications



16                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



for the Fulbright Commission to consider (normally 12 to 15 candidates for seven
slots). However, either a certain number of the students’ projects are not feasible for
Denmark or the candidates receive other scholarship offers. At times, the commission
has had barely enough candidates to fill the available slots, and no alternates in case
someone drops out. In the past, the commission has requested additional candidates
and has found them to be of high quality. Therefore, the commission would like to
consider more candidates from the start.

The Bureau of Educational and Cultural Affairs has agreed, on a pilot basis, that it
will give the Institute for International Education’s screening committee no limits on
the numbers of applicants it should recommend. Instead, the panel will determine
whether or not to recommend a given applicant, and forward a rank-ordered list of
all recommended candidates to the commission in Denmark. The OIG team believes
that this practice will result in an increased number of candidates for the commission
to consider.

The Fulbright Commission also conducts an active Education USA advising
program, with two advisers who conduct advising sessions at their headquarters
in Copenhagen and travel throughout Denmark. Cooperation from the embassy
consular section is good. However, for reasons that are unclear, consular officers do
not participate in joint outreach efforts with the educational advisers as they did in
the past.

Informal Recommendation 3: Embassy Copenhagen should have its consular
officers participate jointly with Fulbright Commission’s Education USA advisers in
sessions promoting study in the United States.

Each exchange program participant represents a significant investment of program
funds, but PAS does not have an alumni database or other systematic way to keep
records of all its alumni. The embassy has a Contact 7 database that it uses primarily
for the July 4 reception and events involving the front office. However, this database
does not include information about whether a contact has participated in a U.S.
Government-sponsored exchange. It is possible to add such a field to the database.
The usefulness of the Contact 7 database would be even greater if PAS staff could
view it from their desktops.


    RECOMMENDATION 13: Embassy Copenhagen should create a field
    in its Contact 7 database to record the status of U.S. Government exchange
    program alumni, and should add all program alumni to the database. (Action:
    Embassy Copenhagen)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   17


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 4: Embassy Copenhagen should install view-only access
     to the Contact 7 database on the desktops of the staff in the public affairs section, in
     addition to the staff member who has editing rights on the system.

     Although Embassy Copenhagen frequently invites program alumni to embassy
     events, it does not have an alumni outreach strategy, there are no alumni organiza-
     tions, and only 2 percent of alumni have signed up for the Department alumni Web
     site. PAS staff has tried to organize alumni groups, without success; they find it an
     uphill battle, because Danes lack a tradition of alumni involvement. Brainstorming
     with the alumni themselves might provide a better sense of what kinds of alumni
     engagement would work best in Denmark.


         RECOMMENDATION 14: Embassy Copenhagen should solicit ideas from
         alumni themselves for energizing alumni engagement, including organiz-
         ing informal dinners or other kinds of sessions at a working level. (Action:
         Embassy Copenhagen)



     Administrative Issues
     A sampling of the PAS grant files showed that they lacked several required docu-
     ments and forms. None of them used the mandatory Federal Assistance File Folder
     Form, DS-4012, which includes a checklist of the other documentation that should
     be in the grant file. Its absence makes it more difficult to ensure that grant files are
     complete. The files did not include full financial documentation and the required
     justification form for grants issued without full and open competition.

     Some of the grant budgets were problematic, with insufficient detail about how
     grant money should be spent. One grant file lacked evidence of the required bureau
     approval for grants over $10,000, and PAS staff confirmed that they did not seek
     bureau approval, because they misunderstood the regulation. On some grants, the
     stated project period did not correspond to the period of time in which the money
     was spent. Some files had no program reports, financial reports, or other documenta-
     tion of project completion.

     Informal Recommendation 5: Embassy Copenhagen should use all required grant
     forms as specified by the Office of the Procurement Executive and include evidence
     of program completion in all grants files.

     PAS handles travel arrangements through grants and buys tickets through procure-
     ment requests for the International Visitor Leadership Program. This procedure
     precludes the use of the General Services Administration’s discounted Airline City


18                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Pair fares and means that air tickets are often more expensive, or less flexible, or
both. The Bureau of Educational and Cultural Affairs has determined that travel for
this program is invitational travel, and that invitational travel orders, which require
the use of City Pair fares, should be issued for International Visitor Leadership
Program travelers.


    RECOMMENDATION 15: Embassy Copenhagen should use invita-
    tional travel orders for its participants in the International Visitor Leadership
    Program. (Action: Embassy Copenhagen)


PAS uses the general services office’s (GSO) procurement office to purchase the items
it needs, even those of low value. It would be more efficient if the section designated a
staff member to obtain a government purchase card.

Informal Recommendation 6: Embassy Copenhagen should direct a staff member
from the public affairs section to obtain a government purchase card.

PAS does not have a formal plan for using its representational funds. Developing
such a plan would facilitate a more strategic approach to the use of these funds, while
encouraging the LE staff to make more use of representation to bolster their own
relations with contacts.

Informal Recommendation 7: Embassy Copenhagen should require that the public
affairs section develop and implement a representation plan.

Local staff members in PAS have generally received the training they need, but there
is no record of who has received which training and when. For future planning
purposes, it would be useful to have a spreadsheet showing this information.

Informal Recommendation 8: Embassy Copenhagen should develop and use a
training spreadsheet in the public affairs section.




CONSULAR OPERATIONS
The consular section at Embassy Copenhagen functions well as a team, and is
appropriately staffed. An experienced consular chief trains and mentors the first-tour
officers, a continuing responsibility. One ELO is in a rotational position, which
means that a new officer arrives in the section each year.



               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   19


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Language Training

     All three consular officer positions are language designated. The consular chief
     and the two first-tour ELOs did not have language training before their arrival; the
     incoming rotational officer has language training. The current rotational officer has
     a language waiver, because he filled an unexpected vacancy. However, he will rotate
     into the political section and it would be desirable for the incumbent in this position
     to have language training.

     Since almost all Danes and residents of Denmark speak, read, and write very good
     (if not excellent) English, there is general agreement in the section that Danish is not
     necessary for the other two officers. For the occasional non-English speaking appli-
     cant, such as a third country national resident or refugee who speaks only Danish,
     any of the LE staff can provide an accurate interpretation. In 2009, only 2 percent of
     the cases required an interpreter. The consular chief conducts outreach activities in
     English and uses English in his interaction with Danish authorities.

     Language classes at the embassy provide useful basics of the language that ease
     transition into Danish society. Not requiring Danish language training for the two
     officers will provide considerable cost savings to the Department, including officer
     salaries, benefits, and temporary duty expenses during the required 6 months of
     study in the Washington area.


         RECOMMENDATION 16: Embassy Copenhagen should notify the
         Department that language training is not necessary for consular officer posi-
         tions 3009500 and 30605000, and should request that these positions no
         longer be language designated. (Action: Embassy Copenhagen)



     Physical Space

     The consular section’s physical space, although sufficient, does not have an ideal
     office and work space layout for officer oversight of the operation. Despite a major
     renovation in January 2009 that added an interview window and other improve-
     ments,(b)(2)(b)(5)
                                                                A future renovation of
     the chancery, now scheduled for 2014, should include changes to improve consular
     oversight. In the meantime, a review of the current set-up and proposal of any reno-
     vations, such as replacing some walls with windows and reallocating officer offices for
     better oversight, would improve the situation.



20                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 9: Embassy Copenhagen should review and implement
measures that can be taken now to improve (b)(2)(b)(5) the consular section.

The consular waiting room space is sufficient, and there is a separate section for
American citizens. However, construction is about to begin on a renovation that will
add a door to the waiting room that will lead directly from the compound access
control. The stated purpose of this construction is to separate the public from the
employees’ main chancery entry. However, the new door is intended only for entry,
and the public will still exit through the main chancery door. The net result will be
less seating space in the waiting room and perhaps better flow, but the public will still
have access to the main chancery entrance as they exit. This issue is further discussed
in the security annex of this report.


Visas

Over 97 percent of Danish citizens take advantage of the Visa Waiver Program
(VWP) for tourist and business travel to the United States. Students and exchange
visitors and those applying for special category visas to work or to invest in the
United States occupy most of the staff time. E visas (treaty traders and investors)
involve the greatest commitment of time in terms of reviewing documentation prior
to interview, and the cases can be quite complicated. Officers are careful to scrutinize
third country national applicants. They submit requests for special advisory opinions
for those cases that require it or that they believe may be of interest to agencies in
Washington. The consular chief reviews adjudications of all ELOs to ensure quality
control and to guide them in their decisionmaking.

The recent imposition of a fee for the Electronic System for Travel Authorization,
required for VWP travelers, caused a flurry of inquiries and some complaints to the
embassy as the public objected to the fee or had difficulty using credit cards to pay it.
However, an active outreach effort helped Danes adjust to the new requirement.

The embassy has been actively negotiating with Danish authorities to conclude
two agreements required for continued participation in the VWP. These are the
Preventing and Combating Serious Crime agreement and the Homeland Security
Presidential Directive 6 agreement on information data sharing regarding known and
suspected terrorists. The Ambassador and the Justice Ministry signed the first agree-
ment during the inspection, but negotiations for the second are on temporary hold.
The embassy expects to resume negotiations in the near future and is confident that
it can conclude negotiations before the next visa waiver review in 2012.

Copenhagen’s immigrant visa workload is small, just over 200 for FY 2009. Third
country national applicants often experience problems with their applications,
because their personal documents are difficult to obtain or verify. The consular


               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   21


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     section relies on other posts to verify questionable documents, especially those from
     Iraq and Afghanistan.


     Visa Referral Policy

     There is little need or demand to use the visa referral system at Embassy
     Copenhagen, since the wait time for nonimmigrant visas is usually short, and Danes
     usually travel under the VWP. However, the embassy recently reissued, under the
     Ambassador’s signature, the visa referral policy based on the worldwide guidance.
     Although an officer who wants to make a referral must sign a statement acknowledg-
     ing understanding and adherence to the visa referral guidance, it would be advisable
     for the consular officer to make a presentation to embassy staff, including the LE
     staff, so that all mission personnel are fully aware of the requirements.

     Informal Recommendation 10: Embassy Copenhagen should arrange at least
     annual presentations on the visa referral policy and procedures for all staff members.


     Visas Viper

     The consular chief chairs the Visas Viper committee. During the inspection, the
     committee met with all mission law enforcement representatives present. Following
     the new Visas Viper guidelines, the committee nominated seven names for possible
     entry into the appropriate database. A cable went to the Department the following
     day with information about these individuals.


     Anti-Fraud Program

     Denmark’s level of fraud is relatively low, consisting mostly of document fraud or
     applicants attempting to travel on tourist visas to work as au pairs in the United
     States in violation of U.S. law. Danish immigration and asylum laws have become
     more restrictive in recent years, limiting the ability of third country nationals to
     enter and reside legally in Denmark. There are large communities of Iraqi, Afghani,
     Iranian, Somali, and other non-Danish residents in the country, and the section has
     identified several cases of fraud among them. One officer and one visa clerk devote
     part of their time to anti-fraud efforts. Neither has had formal anti-fraud training in
     Washington, although the post has nominated the local employee for this training.
     Such training would give this employee the tools to provide continuity and institu-
     tional knowledge as consular officers, especially ELOs, rotate through the section.

     The local employee has traveled to Embassy Stockholm to confer with the anti-
     fraud unit about fraud trends in the Nordic countries. She also contacts other posts


22                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



when necessary for advice and assistance. Regular exchanges among the Nordic
posts, whether they involve travel to neighboring posts for individual consultations,
attending conferences, or participating in video conferences, have numerous benefits.
They would foster synergies and promote information sharing on fraud trends and
applicant schemes that would benefit all. Regional fraud conferences could include
Washington participation. Such meetings should be carefully planned and have an
appropriate agenda and focus for maximum benefit.

Informal Recommendation 11: Embassy Copenhagen should consult with neigh-
boring posts and propose and support initiatives to hold periodic meetings or video
conferences focused on improving anti-fraud measures.


American Citizens Services

Over 15,000 American citizens are registered with the consular section. The embassy
attempts to obtain email addresses for them, and uses them to distribute warden
messages and information of interest to Americans residing in Denmark. Recently,
the consular chief activated the warden system to ensure that registered Americans
are aware of the general Department announcement warning Americans about the
possibility of terrorist activity in Europe. The email distribution system is effective
in passing these types of messages, but there is no established warden system with
individuals as primary points of contact throughout the country. It also could be
useful to appoint wardens to provide feedback to the embassy about the concerns of
American citizens in Denmark and to serve as backup for information distribution, if
other methods are circumscribed.

Informal Recommendation 12: Embassy Copenhagen should identify and appoint
wardens in Denmark.

The consular chief was active in promoting voter registration for overseas Americans
in Denmark prior to the November 2010 elections. The embassy also sponsored
events to encourage and facilitate registration and voting.

Passport and citizenship services are generally routine, and the passport process is
efficient. The section uses DHL to return printed passports, and it sometimes takes
only a weekend for passports to be printed and returned to Denmark. In 2009, the
embassy provided 1,787 passport services.

Copenhagen handles few repatriation or whereabouts cases, and most death cases are
routine, with family members present in country. There were no arrest cases at the
time of the inspection.




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   23


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



      Cruise ship calls to Denmark have increased in recent years, and Disney will begin
     port calls to Denmark next year. About 305 port calls are expected in 2010, versus
     fewer than 200 ten years ago. Cruise ship passengers, plus those who fly into and
     out of Copenhagen to board the ships, totaled around 675,000 in 2009. About 30
     percent of these passengers were Americans. Copenhagen is the number one turn-
     around port in Northern Europe for cruises to the Baltic Sea region. Ships out of
     Copenhagen sometimes also visit the North Atlantic islands and the British Isles.
     There have been only a handful of consular cases involving cruise passengers (petty
     theft, assault, etc.). However, the embassy expects to see more as cruise traffic contin-
     ues to rise.

     Denmark is party to the Hague Convention on Protection of Children and
     Co-operation in respect of Intercountry Adoption. The close working relationship
     that the embassy has with the Danish Central Authority is particularly helpful.
     However, while legally possible, intercountry adoption of a Danish orphan is uncom-
     mon The Hague Abduction Convention is in force between the two countries,
     and there are a handful of cases that the consular section follows and assists with,
     as appropriate. The close working relationship that the post has with the Danish
     Central Authority is particularly helpful.


     Greenland

     For nearly 25 years, the consular section had no reports of incidents in Greenland
     that required consular assistance to Americans. In the past few years, however,
     there have been several serious cases, including an accidental death, a rape charge,
     the arrest and deportation of drug smugglers, a death at sea, and two light airplane
     crashes that resulted in the deaths of the American pilots and the loss of their effects.
     In addition, special arrangements are sometimes necessary if an American loses a
     passport in Greenland and needs a replacement.

     No reliable data is available about the number of visitors to Greenland, but by all
     accounts the numbers are increasing and are likely to continue increasing. As noted,
     the possibility of oil and natural gas exploitation has the potential to bring an influx
     of workers and visitors to the island, including to remote locations. In addition, many
     visitors to Greenland are interested in climate change and ecotourism, and adventure
     travelers seek to explore the island’s vast number of rugged fjords. However, travel
     in this untamed region is still dangerous. The consular section has been effective
     and active in managing their (so far) limited caseload. However, the five-hour time
     difference and distance from Copenhagen make it difficult to provide support to the
     island. The embassy should assess the potential for increased consular work related
     to Greenland and make a recommendation to the Department for better consular
     contact with Greenlandic authorities and with Americans living and visiting the



24                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



island. This contact could include periodic consular visits, or possibly appointing a
consular agent in a key tourist area.


    RECOMMENDATION 17: Embassy Copenhagen, in coordination with the
    Bureau of Consular Affairs and the Bureau of European and Eurasian Affairs,
    should prepare and implement a plan to increase support to American citizens
    in need of consular services in Greenland. (Action: Embassy Copenhagen, in
    coordination with CA and EUR)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   25


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




26   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


     SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



RESOURCE MANAGEMENT

                                                                               Foreign                     Total
                                        U.S. Direct-       U.S. Local-                           Total
              Agency                                                           National                   Funding
                                         Hire Staff        Hire Staff                            Staff
                                                                                Staff                     FY 2010
State – D&CP                                  25                 4                 12             41      $3,887,724
State – ICASS                                  2                 7                 28             37      $5,274,100
State – Public Diplomacy                       2                 0                  5              7      $1,146,070
State – Diplomatic Security                    2                 1                  1              4       $765,663
State – Marine Security                        6                 0                  0              6       $134,126
State – Representation                         0                 0                  0              0        $55,600
State – OBO                                    0                 0                  0              0      $1,907,313
Centers for Disease Control and
                                               3                 0                  0              3       $365,700
Prevention
Foreign Commercial Service                     0                 0                  4              4       $578,648
Defense Attaché Office                         5                 0                  3              8       $720,740
Office of Defense Cooperation                  4                 0                  2              6       $626,800
Foreign Agricultural Service                   0                 0                  0              0             $0
Federal Aviation Administration                0                 0                  0              0             $0
Drug Enforcement Administration                3                 0                  0              3       $514,000
Federal Bureau of Investigation                3                 0                  0              3       $373,050
Department of Homeland Security                2                 0                  2              4       $600,000
Detachment 1, 21 Cons (Air Force)              2                 1                  3              6        $516,477
Totals                                        59                 13                60             132    $17,466,011




MANAGEMENT OPERATIONS
Embassy Copenhagen’s management officer arrived 3 weeks prior to the inspection,
after a nearly 4-month gap in the position. At the same time there was a long-term
vacancy in the DCM position. The acting management officer covered two positions
and did an exceptional job of maintaining the operation and solving difficult prob-
lems. Long-term strategic planning issues, however, necessarily awaited the arrival of
the permanent management officer and DCM.

The new management officer has begun to develop systems that will provide some
stability to the section and create a well functioning team. The management section


                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011                 27


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     is thinly staffed in every unit, and yet overall provides high quality service to
     International Cooperative Administrative Support Services (ICASS) customers, as
     evidenced by the ICASS customer survey scores. Information management, financial
     management, and human resources (HR) services are strong.

     The GSO has been battered by huge turnover in staff in the last 2 years, the addi-
     tion of several new positions to support increased American staffing, and unusually
     heavy requirements for high-level visitor support in the past several months. President
     Obama visited twice, while the First Lady, Secretary of State, nearly 50 congressional
     delegations, and other high-level U.S. officials attended a major summit on the UN
     climate change process. The impact of those factors left the GSO staff feeling weary
     and underappreciated.

     Since then, the unit has shifted gears, establishing a more normal provision of
     services, while digging through the backlog created when routine but critical work
     took a back seat to visitor support. Recovery from that period has been slow, but is
     improving. Some GSO elements are operating at less than optimal efficiency and
     would benefit from a chance to step back for a day to take a fresh look at goals and
     process improvement. The new management officer has a plan to put procure-
     ment on track, step up training for the section, and complete projects at each of the
     government-owned residences. To accomplish his goals, he needs the full support of
     everyone in the section.


        RECOMMENDATION 18: Embassy Copenhagen should hold a manage-
        ment and general services office off-site to establish priorities and set goals for
        the coming year. (Action: Embassy Copenhagen)


     Embassy Copenhagen is known for management innovation and has adopted some
     of the Department’s newest initiatives. The embassy has a nearly cashless financial
     operation, providing no accommodation exchange for embassy employees, and
     accepting bill payments from employees via bank transfers. This approach has
     allowed the embassy to keep only a small amount of cash on hand to support high-
     level visits and some petty cash purchases. It also has allowed the cashier to assume
     additional duties in the financial management section.

     In the general services area, the embassy has a modern warehouse operation, with
     just-in-time delivery of most equipment and furniture, remarkably few stored items,
     and little storage space. The section purchases expendable supplies on an as-needed
     basis through a local supplier; the embassy maintains no supply room, nor are stocks
     of supplies kept in most offices.




28                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



These innovations are excellent initiatives for long-term operations and cost
savings, but they have a short-term cost as the embassy adjusts to the new processes.
Customers may perceive this adjustment as a decline in service levels during this
time. The embassy could do a better job promoting these innovations, touting their
benefits, and explaining how they affect embassy processes. Better communication is
important for current employees and would give newcomers more realistic expecta-
tions prior to their arrival in Copenhagen.

Informal Recommendation 13: Embassy Copenhagen should provide newly assigned
personnel with a clear explanation of some of the unique features and innovations at the
embassy and what they can expect from the embassy’s management section.




FINANCIAL MANAGEMENT
The financial management unit received above-average scores on OIG customer
service surveys for most services. As noted above, the embassy has moved forward
with an initiative to reduce the already minimal level of cash in its Class B cashier’s
advance, creating a cashless embassy that may be a model for other advanced coun-
tries looking to streamline operations. The embassy employs effective tracking and
recovery procedures for value-added tax and energy tax refunds.




INTERNATIONAL COOPERATIVE ADMINISTRATIVE
SUPPORT SERVICES
The embassy’s ICASS council meets regularly to discuss ICASS invoices, work
counts, and related ICASS issues. The direct-hire staffing levels have remained
constant for most of the past decade, and ICASS resources similarly have been
adequate for the embassy’s requirements during most of this period. However, the
pending additions by other agencies of six positions may require a review of staffing
and support levels in response to increases in workload.




HUMAN RESOURCES
The management officer serves as the embassy’s HR officer. Two local employees
manage day-to-day HR operations. One is a resident American who recently received



               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   29


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     a security clearance and handles all American HR issues; the other is a Danish
     national who handles the local staff HR work. A regional HR officer provides
     support from the Regional Support Center in Frankfurt and makes regular visits to
     Copenhagen. Performance evaluations for LE staff members are up-to-date. Local
     employees have few concerns with salary and benefits or other conditions of work.
     They work as partners with their supervisors and, as a group, have come up with
     their own cost-neutral ideas for the benefit of all staff.




     GENERAL SERVICES
      The GSO operates in an environment that is constrained by high operating costs
     and unusually lean local staffing levels, and its leadership has struggled to adjust to
     them. To perform well in Copenhagen, the embassy must have a well-trained staff,
     formal backup duty assignments, strong teamwork and information sharing, and the
     ability to make flexible use of outside contractors to supplement the embassy’s limited
     staffing. Various obstacles hinder progress in addressing these issues. Inexperienced
     leadership at the unit chief level, the long-term absences of both the management
     officer and the DCM, and a large number of new local staff have limited the embas-
     sy’s ability to develop effective operating procedures and improve customer service in
     some areas.
     (b)(2)(b)(5)


                              In turn, embassy customers gave low marks to housing,
     procurement, and maintenance services in OIG’s customer service surveys. Customer
     assessments of overall GSO services are well below average for similar embassies.
     These issues are within the embassy’s ability to address, but it will require provid-
     ing training and improving some business practices, as well as renewing a focus on
     improving customer service.


     Training
     Embassy Copenhagen’s GSO LE staff is highly educated and capable, but staff
     members need additional training to perform at their highest efficiency. They also
     must be cross-trained in multiple administrative support areas to be fully effective.
     Seven employees in GSO professional positions have been on the job fewer than 3
     years. Only two GSO employees received external training in FY 2010. The general
     services officer has not established a formal written training plan for GSO staff,
     though she has worked with LE staff to identify gaps and training opportunities.
     In addition to external training provided in Washington or Frankfurt, the embassy


30                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



should explore distance learning and other opportunities for training at post. More
must be done to develop individual training plans for each employee and to secure
training opportunities for personnel.


   RECOMMENDATION 19: Embassy Copenhagen should develop a compre-
   hensive training plan for employees in the general services office to provide
   appropriate internal and external employee training opportunities. (Action:
   Embassy Copenhagen)



Interagency Housing Board
The process of preparing housing for newly arriving employees is not working as
efficiently as would be expected at a small embassy. The problem begins with the
housing assignments process and coordination between the interagency housing
board (IAHB) and the GSO. The IAHB consists of representatives from agencies at
post and is responsible for assigning employees to government housing overseas. The
IAHB makes many housing decisions by email or at impromptu meetings, leaving
little time for in-person discussion and consideration of sponsoring agencies’ perspec-
tives. The IAHB does not keep regular minutes of its meetings, as required by
15 FAM 212.3.

In turn, the GSO sometimes acquires properties too late in the season to provide
adequate time to allow the IAHB to make an optimal assignment. In several
cases that the OIG team reviewed, tardy acquisition of properties resulted in
officers spending significant time in temporary quarters or arriving to proper-
ties that were not adequately prepared for their arrival. The process of acquiring
housing and making assignments is a shared IAHB and management section
responsibility. The IAHB’s full engagement will help improve performance in
housing services.


   RECOMMENDATION 20: Embassy Copenhagen should convene regular,
   in-person meetings of the interagency housing board and keep records of hous-
   ing assignments for incoming officers. (Action: Embassy Copenhagen)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     Process for Making Residences Ready for New Officers
     The process for making new residences ready for incoming officers also needs
     improvement. Other embassies employ standard procedures to ensure high quality
     outcomes in the make-ready process. These include weekly progress meetings to
     assign taskings and to share information; use of spreadsheets to share information
     among GSO employees; and final quality control inspection by an employee prior to
     the arrival of the new occupant. Embassy Copenhagen does not consistently employ
     these quality control techniques, which could improve the timeliness and quality
     of housing make-ready services. As a result of not having adopted some of these
     practices, delayed or incomplete make readies are common. These delays are costly in
     terms of both temporary quarters expenses and diminished customer service.


         RECOMMENDATION 21: Embassy Copenhagen should develop and
         implement quality control procedures to improve the make-ready process
         for residential housing, to include regular weekly meetings and use of a
         spreadsheet and calendar to coordinate make-ready tasks. (Action: Embassy
         Copenhagen)



     Procurement and Contracting
     Procurement operations struggled to keep up with the workload that accumulated
     in the past year because of the long-term absence of the procurement unit chief. The
     embassy outsources a substantial part of its residential and chancery maintenance to
     contractors, which is a necessity, given the high cost of local labor. Delays in execut-
     ing procurement actions therefore create a ripple effect that adversely affects other
     GSO operations.

     The GSO is taking appropriate steps to correct this situation, including recently
     hiring a new employee and scheduling a pending TDY visit to renew overdue blanket
     purchase agreements and indefinite quantity contracts that are essential to operations.
     The return to duty of the procurement unit chief also should help improve service.
     In an embassy that depends on outsourced services for mission-critical activities,
     procurement services are crucial to the success of the office as a whole.


     Property Management
     The embassy has realized a number of supply chain efficiencies. Implementation
     of just-in-time furniture delivery, an interagency furniture pool, and elimination of
     expendable supply inventories save tens of thousands of dollars annually. At the same


32                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



time, changes in familiar business practices may in some cases contribute to customer
confusion and dissatisfaction with services. For example, although standardizing
furniture assigned to residences makes GSO operations more efficient, customers
need and expect flexibility in meeting legitimate requirements to remove excess furni-
ture or to request delivery of small items. Similarly, while the just-in-time expendable
supply system may reduce costs and inventories, this is a meaningful accomplish-
ment only if customers’ needs are being met. In the case of furniture and expendable
supply services, scores on the OIG surveys were somewhat below average, indicating
possible customer services issues in these areas.

Informal Recommendation 14: Embassy Copenhagen should review furniture issu-
ance policies when conducting the annual update of the housing handbook.

Informal Recommendation 15: Embassy Copenhagen should publish a manage-
ment notice describing the expendable supply process for the benefit of incoming
customers.
Informal Recommendation 16: Embassy Copenhagen should review the
International Cooperative Administrative Support Services universal service stan-
dards for expendable supplies and establish a plan for meeting these standards.




FACILITY MANAGEMENT
The U.S. direct-hire facility manager in Stockholm provides support for Embassy
Copenhagen, working with a small local staff. Facility manager visits have been
infrequent. The current maintenance supervisor received minimal training. The
embassy has few government-owned properties, and those they do have (the chief of
mission residence, the DCM’s residence and the Marine house) have furniture and
furnishings that are at the end of their usable life. The OIG team observed fraying
and stained carpets, worn area rugs, and marred and torn upholstered furniture
in the Ambassador’s representation and living space. The deteriorated condition
of representational furniture reflects poorly on the embassy. The embassy needs to
replace or repair all Marine house floor coverings and provide some kitchen upgrades.
The upholstered furniture in the DCM’s residence is worn and faded.

To prevent unnecessary redecoration and changes solely to accommodate personal
tastes, 15 FAM 733.1 requires Bureau of Overseas Buildings Operations (OBO)
review, approval, and funding of all changes to representational areas of the resi-
dences. OBO may, at its option, provide interim funding to replace damaged items
in the residence. The embassy therefore is photographing some of the worst problems
and will send the photographs to OBO for review.



               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   33


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 22: The Bureau of Overseas Buildings Operations
        should send a representative to review the condition of representational furni-
        ture and furnishings at Embassy Copenhagen. (Action: OBO)



     Preventive Maintenance
     The embassy’s preventive maintenance program, Work Orders for Windows, is
     out-of-date, and no one in the embassy has had the training to update it. The main-
     tenance staff undertakes all preventive maintenance that is identified through the
     program; however, in the absence of a software upgrade, the staff is unable to add
     new preventive maintenance scheduling or delete from the database any equipment
     that is no longer in service. The result is that some preventive maintenance work is
     not done on time, and the need to perform it does not come to the attention of the
     staff until a problem results in a work order. In addition, the maintenance staff is
     slow to update the Work Orders for Windows system when work is completed.


        RECOMMENDATION 23: Embassy Copenhagen should train the main-
        tenance staff to update the Work Orders for Windows program to reflect
        current preventive maintenance requirements and keep the system updated
        with the status of work completed. (Action: Embassy Copenhagen)



     Managing Maintenance and Repair Projects
     Outside contractors perform much of the maintenance and repair work on residences,
     while the embassy’s small internal maintenance staff spends a great deal of time
     on contract management. There is one electrician and one maintenance worker, in
     addition to the maintenance supervisor, but no staff members with other technical
     skills. The time required to arrange contract work has led to problems using funds
     that arrive at the embassy late in the year. In some cases, project money that could
     have been reprogrammed and used for higher priorities was returned to OBO. The
     embassy needs to establish a more forward-looking program to properly use mainte-
     nance funding for high priority projects.

     Informal Recommendation 17: Embassy Copenhagen should develop a written
     planning and implementation schedule which prioritizes maintenance and repair
     projects, identifies timelines, and calendars advance work as necessary.




34                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



INFORMATION MANAGEMENT
Embassy Copenhagen’s information management (IM) program currently exceeds
the expectations of the information technology needs of all users in Copenhagen and
provides the appropriate level of information system security for the embassy. The
OIG team assessed positively the technical and management operating procedures
and physical security of the embassy’s information technology spaces.

The IM program is also responsible for switchboard operations, telephone and radio
management, and classified and unclassified pouch operations. The embassy follows
the Department’s policies and guidelines, and OIG survey results showed that all
services were above average embassy-wide.

Embassy Copenhagen’s IM officer oversees the information systems and information
processing centers. In addition to the IM officer, the section includes an information
management specialist who is in charge of the classified systems.

There are two American officers, an eligible family member, and six LE staff
members supporting Copenhagen’s unclassified systems, diplomatic post office, and
pouch and telephone operations. Overall, the IM office supports 203 users, 144
personal computers, and 10 servers. The information processing unit has one IM
specialist who supports the classified network, which consists of approximately 45
users, 18 workstations, and three servers.

The OIG team performed a penetration test, systems cyber security reviews, and
network analysis. These indicated no major deficiencies.

The OIG team counseled Embassy Copenhagen on issues such as labeling, mail
routes, server room cabling, diplomatic post office policy, network device covers,
telephone list, off-site backup tapes, and IM best practices. The embassy addressed all
these issues to the satisfaction of the OIG team. Some mitigation activities remain in
progress.




INFORMATION SECURITY
Embassy Copenhagen’s IM officer has an extensive cyber security background and
conducts information security procedures well. The IM officer has created a toolkit
that automates the information security duties. The toolkit is considered a best prac-
tice (see below), and the Bureau of Diplomatic Security (DS) now includes instruc-
tions on using it in the DS information systems security officer (ISSO) training class.




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   35


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED



     BEST PRACTICE: The Information Systems Security Officer
     Toolkit

     Issue: The Department has mandated the information systems security officer
     (ISSO) duties to an already overburdened information management staff
     worldwide. These duties are extensive and are mission critical to an embassy’s
     infrastructure. Personnel performing these duties spend many hours research-
     ing cyber security problems on their embassy’s network.
     Response: The information management officer of Embassy Copenhagen
     created and automated several of the key everyday processes of the ISSO
     duties—for example, sending responses to cyber incident response team
     reports, reviewing users’ Internet history, and enforcing logon hour restrictions.
     Results: The toolkit saves time spent on day-to-day tasks. For instance,
     normally processing a cyber incident response team report takes about 2 hours
     and involves notifying the person of the investigation. The tool automates the
     research, does not require notifying the person, and takes 5 minutes.




36   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



QUALITY OF LIFE

COMMUNITY LIAISON OFFICE
The embassy’s community liaison office is staffed by two community liaison office
coordinators who share a 32-hour position. The two officers work well together, are
active, and fully engaged in embassy operations. The office is closed on Friday, so
that the coordinators can brainstorm and share information, a time both described as
their most creative. The coordinators spend significant time on drop-ins and answer-
ing email questions, but also do a significant amount of programming. Since each
coordinator often works more than her allotted 16 hours per week, the embassy may
need to cut back on programming to keep them within their regular hours.

One of the office’s most important functions is to provide new employees and their
families with information about life in Copenhagen. The two officers do an excellent
job with this outreach, both prior to newcomers’ arrival at the embassy and during
the settling in process. The office receives high marks from customers for attention to
morale and newcomer support.




MEDICAL UNIT
The embassy established Copenhagen’s part-time local nurse position in 2003, and
the incumbent functions in a consultative capacity. The embassy receives quarterly
visits from the regional medical officer in Frankfurt. The regional psychiatrist, also
resident in Frankfurt, visits Embassy Copenhagen twice a year. The unit has received
mixed reviews from customers. The nurse’s primary role is to serve as the liaison
between embassy employees needing medical assistance and the local medical doctors
and clinics. She helps employees navigate the Danish medical system and provides
guidance regarding local medical care, also serving as a point of contact for embassy
visitors who need medical assistance. However, the nurse is unable to prescribe
medication and does not maintain a supply of medicine at the embassy.




SCHOOLS
(b)(2)(b)(6)
                                The school received good marks from embassy customers

               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   37


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     in OIG’s customer service surveys. The school has received $569,000 in soft target
     security funding support, as well as annual grant support of $30,000 from the Office
     of Overseas Schools. Under the leadership of its new director, the school is actively
     exploring acquisition of a new facility to address longstanding complaints about the
     school’s physical plant. Acquisition of a new facility will require a long-term capital
     funding plan because of high real estate costs in Copenhagen.




     EMPLOYEE ASSOCIATION
     The American embassy employee association (AEEA) has an active board of embassy
     volunteers who devote significant time to this morale-boosting activity. The AEEA runs
     a small commissary, a vending machine, and a fitness room in the embassy. The associa-
     tion has only two employees, a cashier, and a bookkeeper; the AEEA board manages the
     operation. Employees can submit monthly special orders for commissary items ordered
     through Ramstein Airbase in Germany, which are then trucked to Copenhagen.

     The AEEA is profitable and popular. The board has established good internal
     controls and does regular cash counts. Many of the control procedures are new, the
     board having developed them after the recent discovery of bookkeeper embezzlement.
     The bookkeeper confessed and agreed to pay back what she had taken; the AEEA
     had recovered the full amount by September 2010.




     EQUAL EMPLOYMENT OPPORTUNITY
     Until August 2010, the embassy had a certified Equal Employment Opportunity
     (EEO) counselor. The counselor took the certification course in 2007, but has been
     unable to take the one-day refresher that would have allowed her to keep her certi-
     fication. Another employee at the embassy also has taken the EEO course, but his
     certification also has expired. He is signed up to take the course again in December
     2010, after which he will become the new counselor. Local employees do not have
     their own EEO liaison, but have asked a Department of Defense officer at the
     embassy to serve as their ombudsman should they have any employment issues.

     Despite the lapse of her certification, the previous EEO counselor maintains an excel-
     lent and up-to-date bulletin board with relevant EEO notices and announcements.
     She had received no complaints during her time in the position. If employees come to
     her now with EEO issues, she and the management officer have agreed to refer them
     to the Department’s EEO Web site. The Department will assign a counselor in a
     neighboring embassy to assist.


38                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



MANAGEMENT CONTROLS

Embassy Copenhagen generally has adequate controls in place to protect against
waste, fraud, and abuse of government resources. In most areas, the embassy has in
place proper separation of duties to ensure that no individual controls all elements
of transactions. The Ambassador signed the annual chief of mission certification
on internal controls on July 19, 2010, that identified no material weaknesses in post
operations. The OIG team found several areas where internal controls could be
strengthened further (described below, but none is a reportable material weakness.




SEPARATION OF DUTIES – PROPERTY MANAGEMENT
Two employees in the property unit participate in the annual property inventory
process and also have full access to the Non-Expendable Property Application, which
records the condition and location of personal property. Full access to the property
system allows employees to make changes to the location and status of property in
the system. Conducting the annual property inventory and maintaining property
records are responsibilities that should be separated whenever possible, as discussed
in 14 FAM 411.2 d. In the absence of separation of these responsibilities, internal
controls over property may allow theft or loss of property to occur.


   RECOMMENDATION 24: Embassy Copenhagen should restrict full access
   to the Non-Expendable Property Application system to the non-expendable
   property clerk. (Action: Embassy Copenhagen)




PROPERTY DISPOSAL PROCEDURES
Embassy Copenhagen is not in full compliance with Department regulations
concerning the disposal of government property. The embassy maintains custody
over an inventory of $2.41 million in personal property, mostly computer equip-
ment and residential furniture. The embassy periodically disposes of property that is
surplus to requirements. In past years, the costs of organizing auctions with a local
auctioneer exceeded proceeds of sale. According to the property management staff


               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   39


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     that the OIG team interviewed, there is no commercial market in Denmark for
     excess furniture from the United States. Accordingly, the embassy has disposed of
     property by abandonment, destruction, or in some cases, donation. These methods of
     disposal are undesirable as the embassy does not receive proceeds of sale from prop-
     erty that has an estimated acquisition value of approximately $280,000 a year.

     Prior to disposing of property by destruction or abandonment, 14 FAM 417.2 b.
     requires that posts abroad follow specific procedures. Posts must ensure that they
     consider other disposal options, such as redistribution to the parent agency (including
     other posts and regional centers); transfer to a commissary; sale or exchange; or reuse
     of the property by a General Services Administration recipient in the United States.
     Embassy Copenhagen’s property disposal records do not contain documentation that
     such a review occurred. The government may be able to derive residual proceeds of
     sale or other value from the property through other methods of disposal.


        RECOMMENDATION 25: Embassy Copenhagen should issue a property
        disposal policy documenting its method of disposing property and the reasons
        other mandated methods of disposal cannot be used. (Action: Embassy
        Copenhagen)




     SAFETY, HEALTH, AND ENVIRONMENTAL MANAGEMENT
     PROGRAM – MOTOR VEHICLES
     The embassy employs a motor pool supervisor and two chauffeurs. One of the chauf-
     feurs works excessive amounts of overtime. In the first 6 months of FY 2010, this
     driver worked 487 hours of overtime or compensatory time off, including a number
     of days in which he worked shifts longer than 10 hours. To reduce the potential for
     motor vehicle mishaps due to operator sleep deprivation and fatigue, 14 FAM 431.2-2
     prohibits drivers from working more than 10 hours a day. At most embassies, drivers
     work shifts to minimize overtime and provide adequate coverage for embassy busi-
     ness requirements. In Copenhagen, two drivers work little overtime, while a third
     driver in the unit works nearly all the additional hours. The imbalanced workload for
     chauffeurs is both inefficient and a safety concern.


        RECOMMENDATION 26: Embassy Copenhagen should adjust the work
        schedules of motor vehicle chauffeurs to reduce overtime and reduce the risk
        of motor vehicle accidents caused by fatigue. (Action: Embassy Copenhagen)


40                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



ACCEPTANCE OF GIFTS
The embassy recently set up a gift register to document the receipt of gifts by senior
embassy officers, but it has yet to issue a standard operating procedure related to
the acceptance of gifts. Chapter 5, Section 2635.202 (a) of the Code of Federal
Regulations (CFR) prohibits an employee of the Executive Branch from soliciting or
accepting any gift from a prohibited source, or a gift given because of the employee’s
official position, except as provided by the stated exceptions. A “prohibited source”
is defined in 5 CFR 2635.203 (d) “as any person who seeks official action by the
employee’s agency; does business or seeks to do business with the employee’s agency;
conducts activity regulated by the employee’s agency; has interests that may be
substantially affected by performance or non performance of the employee’s official
duties,” or is an organization a majority of whose members are described in para-
graphs (d)(1) through (4) of that section. Chapter 5, Section 2635.205 deals with the
proper disposition of prohibited gifts. The embassy does not have a process in place
to record the acceptance of all gifts, identify possible prohibited donors, or estimate
the value of gifts. The lack of such a process is a management control weakness and
could result in employees accepting gifts from prohibited sources.


    RECOMMENDATION 27: Embassy Copenhagen should create and imple-
    ment a standard operating procedure for gift management to maintain accu-
    rate records on the acceptance of gifts by embassy employees; to determine
    whether a gift is from a prohibited source; to ascertain the fair market value
    of the gift; and to record the proper disposition of the gift. (Action Embassy
    Copenhagen)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   41


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




42   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



FORMAL RECOMMENDATIONS

RECOMMENDATION 1: The Bureau of European and Eurasian Affairs should
arrange consultations in Washington for the Ambassador of Embassy Copenhagen at
the earliest opportunity. (Action: EUR)


RECOMMENDATION 2: Embassy Copenhagen should implement operating
procedures that assign the responsibility for administrative and day-to-day opera-
tions of the embassy, as well as the decisionmaking related to these functions, to the
deputy chief of mission. (Action: Embassy Copenhagen)


RECOMMENDATION 3: Embassy Copenhagen should issue an administra-
tive notice that delineates a clear chain of command and makes section heads
fully responsible for the conduct of their sections, and affirms their role in main-
taining oversight and quality control over their section’s work. (Action: Embassy
Copenhagen)


RECOMMENDATION 4: Embassy Copenhagen should foster greater transpar-
ency, with the front office exchanging more information regarding operations and
activities with the working levels of the embassy, to include attending working level
meetings. (Action: Embassy Copenhagen)


RECOMMENDATION 5: Embassy Copenhagen should design and implement a
clearance process for the political/economic section to increase its productivity and
the quality of its reporting. (Action: Embassy Copenhagen)


RECOMMENDATION 6: Embassy Copenhagen should implement a plan for the
political/economic section to report more context and undertake more analysis in its
reporting. (Action: Embassy Copenhagen)


RECOMMENDATION 7: Embassy Copenhagen should rebalance its use of
email and informal messages in favor of cables that report developments, analyze
trends, and offer scenarios and suggestions for U.S. policymakers. (Action: Embassy
Copenhagen)




               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   43


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 8: Embassy Copenhagen, in coordination with the Bureau
     of Oceans and International Environmental and Scientific Affairs, should amend
     the work requirements of position 57152000, such that the reviewing officer is an
     appropriate officer in the Bureau of Oceans and International Environmental and
     Scientific Affairs. (Action: Embassy Copenhagen, in coordination with OES)


     RECOMMENDATION 9: Embassy Copenhagen should review the priorities it set
     out in its 2012 Mission Strategic and Resource Plan and, in coordination with the
     Bureau of European and Eurasian Affairs, identify those priorities that would benefit
     most from a normal programming of resources. (Action: Embassy Copenhagen, in
     coordination with EUR)


     RECOMMENDATION 10: Embassy Copenhagen should constitute a working
     group composed of embassy elements that are active in Greenland, to determine
     whether and how to increase staff time in Greenland; identify U.S. strategic inter-
     ests there; and, in coordination with the Bureau for European and Eurasian Affairs,
     develop recommendations for how to pursue these interests. (Action: Embassy
     Copenhagen, in coordination with EUR)


     RECOMMENDATION 11: Embassy Copenhagen should develop and carry out
     a long-range media strategy for the Ambassador that includes public interviews and
     speeches, as well as informal, off-the-record gatherings with journalists. For these
     encounters, the Ambassador should receive briefing materials covering key issues.
     (Action: Embassy Copenhagen)


     RECOMMENDATION 12: Embassy Copenhagen should bring its social media
     sites into compliance with the new Department guidelines on social media. (Action:
     Embassy Copenhagen)


     RECOMMENDATION 13: Embassy Copenhagen should create a field in its Contact
     7 database to record the status of U.S. Government exchange program alumni, and
     should add all program alumni to the database. (Action: Embassy Copenhagen)


     RECOMMENDATION 14: Embassy Copenhagen should solicit ideas from alumni
     themselves for energizing alumni engagement, including organizing informal dinners
     or other kinds of sessions at a working level. (Action: Embassy Copenhagen)


     RECOMMENDATION 15: Embassy Copenhagen should use invitational travel
     orders for its participants in the International Visitor Leadership Program. (Action:
     Embassy Copenhagen)

44                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 16: Embassy Copenhagen should notify the Department
that language training is not necessary for consular officer positions 3009500 and
30605000, and should request that these positions no longer be language designated.
(Action: Embassy Copenhagen)


RECOMMENDATION 17: Embassy Copenhagen, in coordination with the
Bureau of Consular Affairs and the Bureau of European and Eurasian Affairs, should
prepare and implement a plan to increase support to American citizens in need of
consular services in Greenland. (Action: Embassy Copenhagen, in coordination with
CA and EUR)


RECOMMENDATION 18: Embassy Copenhagen should hold a management and
general services office off-site to establish priorities and set goals for the coming year.
(Action: Embassy Copenhagen)


RECOMMENDATION 19: Embassy Copenhagen should develop a comprehensive
training plan for employees in the general services office to provide appropriate internal
and external employee training opportunities. (Action: Embassy Copenhagen)


RECOMMENDATION 20: Embassy Copenhagen should convene regular,
in-person meetings of the interagency housing board and keep records of housing
assignments for incoming officers. (Action: Embassy Copenhagen)


RECOMMENDATION 21: Embassy Copenhagen should develop and implement
quality control procedures to improve the make-ready process for residential housing,
to include regular weekly meetings and use of a spreadsheet and calendar to coordi-
nate make-ready tasks. (Action: Embassy Copenhagen)


RECOMMENDATION 22: The Bureau of Overseas Buildings Operations should
send a representative to review the condition of representational furniture and
furnishings at Embassy Copenhagen. (Action: OBO)


RECOMMENDATION 23: Embassy Copenhagen should train the maintenance
staff to update the Work Orders for Windows program to reflect current preven-
tive maintenance requirements and keep the system updated with the status of work
completed. (Action: Embassy Copenhagen)


RECOMMENDATION 24: Embassy Copenhagen should restrict full access to the
Non-Expendable Property Application system to the non-expendable property clerk.
(Action: Embassy Copenhagen)

                OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   45


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     RECOMMENDATION 25: Embassy Copenhagen should issue a property
     disposal policy documenting its method of disposing property and the reasons other
     mandated methods of disposal cannot be used. (Action: Embassy Copenhagen)


     RECOMMENDATION 26: Embassy Copenhagen should adjust the work sched-
     ules of motor vehicle chauffeurs to reduce overtime and reduce the risk of motor
     vehicle accidents caused by fatigue. (Action: Embassy Copenhagen)


     RECOMMENDATION 27: Embassy Copenhagen should create and implement a
     standard operating procedure for gift management to maintain accurate records on
     the acceptance of gifts by embassy employees; to determine whether a gift is from
     a prohibited source; to ascertain the fair market value of the gift; and to record the
     proper disposition of the gift. (Action Embassy Copenhagen)




46                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



INFORMAL RECOMMENDATIONS

Informal recommendations cover operational matters not requiring action by orga-
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Informal Recommendation 1: Embassy Copenhagen should develop and distribute
guidelines for when to use informal email, record email, and cables for communica-
tion and reporting.

Informal Recommendation 2: Embassy Copenhagen should develop a formal media
policy and circulate it periodically to embassy staff.

Informal Recommendation 3: Embassy Copenhagen should have its consular
officers participate jointly with Fulbright Commission’s Education USA advisers in
sessions promoting study in the United States.

Informal Recommendation 4: Embassy Copenhagen should install view-only access
to the Contact 7 database on the desktops of the staff in the public affairs section, in
addition to the staff member who has editing rights on the system.

Informal Recommendation 5: Embassy Copenhagen should use all required grant
forms as specified by the Office of the Procurement Executive and include evidence
of program completion in all grants files.

Informal Recommendation 6: Embassy Copenhagen should direct a staff member
from the public affairs section to obtain a government purchase card.

Informal Recommendation 7: Embassy Copenhagen should require that the public
affairs section develop and implement a representation plan.

Informal Recommendation 8: Embassy Copenhagen should develop and use a
training spreadsheet in the public affairs section.

Informal Recommendation 9: Embassy Copenhagen should review and implement
measures that can be taken now to improve (b)(2)(b)(5) in the consular section.

Informal Recommendation 10: Embassy Copenhagen should arrange at least
annual presentations on the visa referral policy and procedures for all staff members.



               OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   47


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



     Informal Recommendation 11: Embassy Copenhagen should consult with neigh-
     boring posts and propose and support initiatives to hold periodic meetings or video
     conferences focused on improving anti-fraud measures.

     Informal Recommendation 12: Embassy Copenhagen should identify and appoint
     wardens in Denmark.

     Informal Recommendation 13: Embassy Copenhagen should provide newly
     assigned personnel with a clear explanation of some of the unique features and
     innovations at the embassy and what they can expect from the embassy’s manage-
     ment section.

     Informal Recommendation 14: Embassy Copenhagen should review furniture issu-
     ance policies when conducting the annual update of the housing handbook.

     Informal Recommendation 15: Embassy Copenhagen should publish a manage-
     ment notice describing the expendable supply process for the benefit of incoming
     customers.

     Informal Recommendation 16: Embassy Copenhagen should review the
     International Cooperative Administrative Support Services universal service stan-
     dards for expendable supplies and establish a plan for meeting these standards.

     Informal Recommendation 17: Embassy Copenhagen should develop a written
     planning and implementation schedule which prioritizes maintenance and repair
     projects, identifies timelines, and calendars advance work as necessary.




48                  OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



PRINCIPAL OFFICIALS

Position                                                             Name                                    Arrival Date
Ambassador                                                           Laurie S. Fulton                              06/09
Deputy Chief of Mission                                              Stephen A. Cristina                           09/10

Chiefs of Sections:
Management                                                           Jonathan Bayat                                09/10
Consular                                                             Robert J. Jachim                              07/09
Political/Economic                                                   Richard K. Bell                               07/09
Public Affairs                                                       Melissa G. Ford                               07/08
Regional Security                                                    Dimas A. Jaen                                 08/10

Other Agencies:
Department of Defense
   Defense Attaché                                                   Capt. Christopher J. McDonald                 07/09
   Defense Cooperation                                               Col. Clifford Puckett                         05/09
   Detachment 1, 21st Contracting Squadron                           Maj. Antonio J. Gonzalez                      08/08
Department of Justice
   Legal Attaché                                                     Gregory D. Cox
   Drug Enforcement Administration                                   Timothy D. Moran                              08/09
Department of Homeland Security
   Immigration and Customs Enforcement                               John M. Netherland                            08/10
Centers for Disease Control                                          Joshua Mott                                   08/09




                      OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011                  49


                  SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED




50   OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011


     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



ABBREVIATIONS

AEEA	                        American embassy employee association
CFR	                         Code of Federal Regulations
Department	                  Department of State
DCM	                         deputy chief of mission
DS	                          Bureau of Diplomatic Security
EEO	                         Equal Employment Opportunity
ELO	                         entry-level officer
ESTH	                        environment, science, technology, and health
FAH	                         Foreign Affairs Handbook
FAM	                         Foreign Affairs Manual
GSO	                         general services office
HR	                          human resources
IAHB	                        interagency housing board
ICASS	                       International Cooperative Administrative Support
                             Services
IM	                          information management
IRC	                         Information Resource Center
ISSO	                        information system security officer
LE	                          locally employed
MSRP	                        Mission Strategic and Resource Plan
OBO	                         Bureau of Overseas Buildings Operations
OIG	                         Office of Inspector General
PAS	                         public affairs section
RSO	                         regional security officer
SMART	                       State Messaging and Archival Retrieval Toolkit
VWP	                         Visa Waiver Program




              OIG Report No. ISP-I-11-19A - Inspection of Embassy Copenhagen, Denmark - March 2011   51


              SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
 of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED
